Report No. D-2008-026        November 30, 2007




 Management of the Iraq Security Forces Fund
       in Southwest Asia - Phase III
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AFCEE                 Air Force Center for Environmental Excellence
CEFMS                 Corps of Engineers Financial Management System
DFAS                  Defense Finance and Accounting Service
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
IG                    Inspector General
INL                   Bureau for International Narcotics and Law Enforcement
ISF                   Iraq Security Forces
ISFF                  Iraq Security Forces Fund
MIPR                  Military Interdepartmental Purchase Request
MNSTC-I               Multi-National Security Transition Command-Iraq
SIGIR                 Special Inspector General for Iraq Reconstruction
USACE GRD             U.S. Army Corps of Engineers Gulf Region Division
                            INSPECTOR GENERAL

                          DEPARTMENT OF DEFENSE

                             400 ARMY NAVY DRIVE

                        ARLINGTON, VIRGINIA 22202-4704





                                                                               November 30, 2007

MEMORANDUM FOR COMMANDER, MULTI-NATIONAL SECURITY
                 TRANSITION COMMAND-IRAQ

SUBJECT:	 Report on Management of the Iraq Security Forces Fund in
          Southwest Asia - Phase III (Report No. D-2008-026)


      We are providing this report for infOlmation and use. We considered
management comments on a draft of this report in preparing the final report.

       Conm1ents on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. As requested in management comments,
we revised Recommendations 3. and 5. to clarify our intention. Therefore, no additional
comments are required.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Nancee Needham at (703) 604-9633 (DSN 664-9633). See Appendix D for the
report distribution. The team members are listed inside the back cover.

                              By direction of the Deputy Inspector General for Auditing:


                                              ,     ~.' ~~
                                                  1Wtk
                                                         --Jl;	   ----....",
                                                         =-::-:t:'-C'; t)'{
                                             Wanda A. Scott
                                             Assistant Inspector General
                                             Readiness and Operations SUPPOlt
               Department of Defense Office of Inspector General
Report No. D-2008-026                                                 November 30, 2007
   (Project No. D2007-D000LQ-0141.000)

              Management of the Iraq Security Forces Fund in 

                      Southwest Asia – Phase III 


                                 Executive Summary 


Who Should Read This Report and Why? DoD acquisition, contracting, and supply
chain management personnel should read this report. It identifies challenges in DoD
regulations, policies, and procedures pertaining to nation-building efforts in Iraq.

Background. Public Law 109-13, “Emergency Supplemental Appropriations Act for
Defense, the Global War on Terror, and Tsunami Relief, 2005,” May 11, 2005, provided
$5.7 billion for the Iraq Security Forces Fund, of which the Commander, Multi-National
Security Transition Command-Iraq received $5.2 billion. The funds were to be used to
provide equipment; supplies; services; training; and facility and infrastructure repair,
renovation, and construction for the Iraq Security Forces.

We performed the audit as required by Public Law 109-234, “Emergency Supplemental
Appropriations Act for Defense, the Global War on Terror, and Hurricane
Recovery, 2006,” June 15, 2006. This is the third and final in a series of audits on the
Iraq Security Forces Fund. For Phase III, we determined whether the Multi-National
Security Transition Command-Iraq properly accounted for the services, equipment, and
construction purchased for the Iraq Security Forces using the Iraq Security Forces Fund
and whether the delivery of services, equipment, and construction was properly made.

Results. The Multi-National Security Transition Command-Iraq was not able to
demonstrate proper accountability for and management of the Iraq Security Forces Fund
and could not always demonstrate that the delivery of services, equipment, and
construction was properly made to the Iraq Security Forces. As a result, the Multi-
National Security Transition Command-Iraq was unable to provide reasonable assurance
that Iraq Security Forces Fund achieved the intended results, that resources were used in
a manner consistent with the mission, and that the resources were protected from waste
and mismanagement. In addition, several transactions resulted in $1.8 million of funds
that could be put to better use. Those transactions were not identified for deobligation by
the required Multi-National Security Transition Command-Iraq triannual reviews. See
the Finding section of this report for the detailed recommendations.

We recommend that the Commander, Multi-National Security Transition Command-Iraq
establish internal controls and specific procedures for forward-deployed personnel to
follow in maintaining adequate oversight of obligated funds and retaining accountable
property records for expenditure of wartime funding. Also, the Commander, Multi-
National Security Transition Command-Iraq should develop standard operating
procedures for processing, managing, and overseeing Military Interdepartmental
Purchase Requests. In addition, the Commander, Multi-National Security Transition
Command-Iraq should identify personnel requirements for proper sourcing in the Joint
Manning Document it submits through Multi-National Force-Iraq, U.S. Central
Command, to the Joint Staff and the Office of the Secretary of Defense. We recommend
that the Commander, Multi-National Security Transition Command-Iraq establish
procedures that ensure compliance with the DoD Financial Management Regulation for
performing and documenting triannual validation reviews of unliquidated obligations,
and establish controls to deobligate funds efficiently. We also recommend that the
Commander, Multi-National Security Transition Command-Iraq, in conjunction with the
Defense Finance and Accounting Service, conduct an assessment of financial
management functions (such as financial reporting, accounts payable, and cost
accounting) that could be transferred outside of Iraq to ease the strain on the Command’s
accounting personnel.

Management Comments and Audit Response. The Commander, Multi-National
Security Transition Command-Iraq concurred with four of the recommendations,
nonconcurred with one of the recommendations, and partially concurred with one of the
recommendations. The Commander’s comments were fully responsive. We agreed with
the Commander’s comments and revised two of our recommendations. We revised
Recommendation 3. to require Multi-National Security Transition Command-Iraq to
identify personnel requirements for proper sourcing in the Joint Manning Document it
submits through Multi-National Force-Iraq, U.S. Central Command, to the Joint Staff and
the Office of the Secretary of Defense. We removed the words “identify discounts” from
Recommendation 5. because the Corps of Engineers Financial Management System
automatically calculates the discounts at the time of disbursement. We require no further
comments from Multi-National Security Transition Command-Iraq.

Although not required to comment, the Director, Defense Finance and Accounting
Service Indianapolis Operations concurred with Recommendation 6. The Director stated
that the Defense Finance and Accounting Service assessed the financial management
functions of the Multi-National Security Transition Command-Iraq and is in the process
of transferring two Defense Finance and Accounting Service accountants to augment the
Multi-National Security Transition Command-Iraq accounting cell. We require no
further comments from the Defense Finance and Accounting Service.

Although not required to comment, the Chief Audit Executive, Headquarters U.S. Army
Corps of Engineers Internal Review Office provided comments on the draft report
regarding prompt-payment discounts. The Chief Audit Executive stated that, for all
transactions entered in it, the Corps of Engineers Financial Management System
automatically records the discount taken, returns the discount to the obligation,
deobligates the discount, and returns the discount amount to the funding account. We
concur that the Corps of Engineers Financial Management System automatically
calculates the discounts for transactions, as the Chief Audit Executive stated; however,
sufficient documentation has not been provided that all discounts taken were deobligated
and returned to the funding account. We require no further comments from the U.S.
Army Corps of Engineers. Refer to the Finding section for a discussion of management
comments and to the Management Comments section for the complete text of the
comments.

Actions by the Command. According to the Commander, Multi-National Security
Transition Command-Iraq, Command has already taken steps toward implementing the
recommendations in this report. These steps include drafting a standard operating
procedure for property accountability; partnering with the Air Force Center for
Environmental Excellence to develop a standard operating procedure to improve transfer
and acceptance of real property; reviewing and correcting DD Forms 1354; setting up an
accounting section to ensure accurate and timely oversight of accounting processes and

                                            ii
documents; initiating an in-depth review of open obligations and commitments, which
has already resulted in 950 documents being deobligated (freeing up $831 million); and
working with Defense Finance and Accounting Service personnel to improve financial
reporting, accounts payable, and cost accounting in the combat zone. We commend
Multi-National Security Transition Command-Iraq for promptly taking these steps to
implement the recommendations.

Security Conditions. The Commander, Multi-National Security Transition Command-
Iraq commented on the level of violence in Iraq, stating that more than 80 percent of the
violence in Iraq is limited to four provinces centered around Baghdad, although violence
also exists in other population centers, such as Kirkuk, Mosul, and Basrah (as cited in the
March and June 2007 - Section 9010 report). The instability in Iraq affects the
Coalition’s ability to move, communicate (voice and computer connectivity), deliver
equipment, assess construction sites, and carry out oversight. According to the
Commander, Multi-National Security Transition Command-Iraq, the level of violence in
Iraq continued to rise during our site visit to Iraq (from March to May 2007), but began
to decline shortly after we departed and has continued to decline since then.

Resources. The Commander, Multi-National Security Transition Command-Iraq
highlighted requirements for oversight resources. The table below compares the
oversight resources of the Multi-National Security Transition Command-Iraq with those
of other large commands in the United States.

           Comparison of Oversight Resources Available to U.S. Commands
                              (as of October 23, 2007)

                                                                                   FY 2007
                     Command                            Auditors   Comptrollers     Budget

  Multi-National Security Transition
  Command-Iraq                                             1           16         $5.5 billion

  U.S. Army Training and Doctrine
  Command                                                  8           64         $3.2 billion

  U.S. Army Forces Command                                 6           47         $3.0 billion

  U.S. Army Tank-Automotive and
  Armaments Command, Life Cycle
  Management                                               7           45         $3.6 billion

Source: Multi-National Security Transition Command-Iraq




                                                iii 

Table of Contents 


Executive Summary 	                                                        i

Background 	                                                               1

Objective 	                                                                2

Review of Internal Controls 	                                              2

Finding
      Accountability for and Management of Services, Equipment, and 

           Construction Purchased Through the Iraq Security Forces Fund    3

Appendixes
      A. Scope and Methodology 	
                                         21
          Prior Coverage
                                                 23
      B. Criteria 	                                                       24
      C. Equipment Distribution Processes 	                               28
      D. Report Distribution 	                                            34

Management Comments
      Multi-National Security Transition Command-Iraq 
                   37
      Defense Finance and Accounting Service
                             41
      U.S. Army Corps of Engineers 	                                      42
Background 

    Public Law 109-13. In Public Law 109-13, “Emergency Supplemental
    Appropriations for Defense, the Global War on Terror, and Tsunami
    Relief, 2005,” specifically Section 3. References, Division A, Title l-Defense
    Related Appropriations, Congress appropriated $5.7 billion to the Secretary of
    Defense and allowed the Commander, Multi-National Security Transition
    Command-Iraq (MNSTC-I) to provide assistance, with the concurrence of the
    Secretary of State, to the security forces of Iraq.

    The Commander, MNSTC-I received $5.246 billion to provide equipment;
    supplies; services; training; and facility and infrastructure repair, renovation, and
    construction. The U.S. Army Forces Command received $0.145 billion, and the
    Defense Security Cooperation Agency received $0.099 billion from the
    appropriation to assist the Iraq Security Forces (ISF). In addition, $0.210 billion
    from the appropriation was transferred to the “Operation and Maintenance,
    Army” appropriation account by Public Law 109-13. The appropriation expired
    September 30, 2006.

    We performed the audit as required by Public Law 109-234, “Emergency
    Supplemental Appropriations Act for Defense, the Global War on Terror, and
    Hurricane Recovery, 2006,” June 15, 2006.

    MNSTC-I. The primary mission of MNSTC-I is to assist the Iraqi government in
    developing, organizing, training, equipping, and sustaining ISF. This mission is
    performed by multiple components of MNSTC-I. Specifically, the Coalition
    Military Assistance Training Team assists in developing, organizing, training,
    equipping, and sustaining the Iraq Army and Navy Forces. The Civilian Police
    Assistance Training Team helps the Ministry of Interior train the Civil Forces
    sustaining security throughout Iraq. The Joint Headquarters Training Team
    assists the Iraq Joint Headquarters in continuing to build a self-reliant and
    effective strategic command and control institution.

    On June 27, 2005, the Deputy Secretary of Defense issued a memorandum
    assigning the Secretary of the Army responsibility for providing support to
    MNSTC-I from the Army Project and Contracting Office in distributing and
    accounting for the Iraq Security Forces Fund (ISFF). On December 4, 2005, the
    Army Project and Contracting Office merged with the U.S. Army Corps of
    Engineers Gulf Region Division (USACE GRD). The Secretary of the Army is
    responsible for proper financial management, fiscal controls, and accountability
    in accordance with statute and with DoD Regulation 7000.14-R, “DoD Financial
    Management Regulation” (FMR).

    Audit of the Iraq Security Forces Fund. We performed the audit in three
    phases. For Phase I, we reported on the distribution of funds appropriated for the
    Iraq Security Forces Fund within the Office of the Secretary of Defense and the
    Department of the Army in Report No. 02007-030, “Management of the Iraq
    Security Forces Fund in Southwest Asia Phase I,” December 8, 2006. We
    determined that the Office of the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer and the Office of the Assistant Secretary of the Army (Financial
    Management and Comptroller) distributed and transferred the $5.7 billion in
    compliance with the 14 provisions of Public Law 109-13 and appropriation law.

                                          1

     For Phase II, we reported on the obligation of the funds by MNSTC-I in Report
     No. 02007-060, “Management of the Iraq Security Forces Fund in Southwest
     Asia - Phase II,” February 12, 2007. We determined that, as of June 30, 2006,
     obligations incurred by MNSTC-I for the audit sample (100 obligations and the
     associated 395 obligation transactions valued at $3.3 billion, out of an audit
     universe of $4.6 billion in funds appropriated for ISFF) complied with the intent
     of Public Law 109-13.

     For Phase III, we reviewed public laws, the Federal Acquisition Regulation, DoD
     regulations, memos from the Office of the Secretary of Defense, and standard
     operating procedures on providing equipment and construction to ISF. Our
     objective was to determine whether MNSTC-I properly accounted for the
     services, equipment, and construction purchased for ISF using ISFF and whether
     the delivery of services, equipment, and construction was properly made. See
     Appendix B for criteria. In addition, we examined processes for issuing
     equipment at the Umm Qasr and the Abu Ghraib warehouses. See Appendix C
     for details on the equipment distribution processes.

     Judgmental Sample. The judgmental sample for Phase III was 317 obligation
     transactions valued at $2.7 billion. The judgmental sample contains 112 services
     obligation transactions valued at $1.2 billion, 154 equipment obligation
     transactions valued at $1.1 billion, and 51 construction obligation transactions
     valued at $0.4 billion. For more on the scope and methodology, see Appendix A.


Objective
     Our overall audit objective was to determine whether MNSTC-I properly
     accounted for the goods and services purchased for ISF using ISFF and whether
     the delivery of goods and services was properly made to ISF. We also reviewed
     the management control program as it related to the objective. For scope and
     methodology and for prior coverage related to the objective, see Appendix A.


Review of Internal Controls
     We identified material internal control weaknesses for ISFF as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
     January 4, 2006. DoD Instruction 5010.40 states that internal controls are the
     organization, policies, and procedures that help program and financial managers
     achieve results and safeguard the integrity of their programs. MNSTC-I did not
     have adequate procedures in place to provide reasonable assurance that
     equipment, construction, and services procured through ISFF were provided to
     ISF. Implementing our recommendations will improve the internal controls over
     ISFF. We will provide a copy of the report to the senior ISFF official responsible
     for management controls.




                                          2

           Accountability for and Management of
           Services, Equipment, and Construction
           Purchased Through the Iraq Security
           Forces Fund
           MNSTC-I was not always able to demonstrate proper accountability for
           and management of ISFF purchases and could not always demonstrate that
           the delivery of services, equipment, and construction was properly made
           to ISF. This occurred because MNSTC-I did not have sufficient controls
           and procedures in place, did not maintain adequate oversight, and did not
           maintain accountable property records. In addition, MNSTC-I did not
           have adequate resources for efficient management of services, equipment,
           and construction purchased through ISFF. As a result, MNSTC-I was
           unable to provide reasonable assurance that funds appropriated for ISF
           achieved the intended results, that resources were used in a manner
           consistent with the mission, and that resources were protected from waste
           and mismanagement. In addition, several transactions resulted in
           $1.8 million of funds that could be put to better use. Those transactions
           were not identified for deobligation by the required MNSTC-I triannual
           reviews.


Criteria
     DoD Guidance. DoD FMR, volume 3, chapter 8, section 080401, “Triannual
     Reviews of Commitments and Obligations,” November 2000, states:
           [F]und holders, with assistance from supporting accounting offices,
           shall review commitment and obligation transactions for timeliness,
           accuracy, and completeness during each of the four month periods
           ending on January 31, May 31, and September 30 of each fiscal year.
           The requirement for reviews of commitments and obligations applies to
           all appropriations and funds of all DoD Components. This requirement
           applies not only to direct appropriations, but also to all reimbursable
           transactions, as well as the Department’s revolving and trust funds.

     DoD Instruction 5000.64, “Accountability and Management of DoD-Owned
     Equipment and Other Accountable Property,” November 2, 2006, states that DoD
     Components, which include MNSTC-I, shall:
           5.2.1. Be accountable for and manage all property acquired, leased, or
           otherwise obtained throughout an asset’s lifecycle . . .

           5.2.2. Establish accountable property systems of record; ensure their
           appropriate integration with core financial and other systems and
           processes, particularly those for logistics and acquisition.

           5.2.3. Establish implementing regulations and procedures, including
           the assessment and reporting of its overall property management
           maturity level.

                                             3

     The Instruction also states, “property records will be kept current and shall
     provide a complete trail of all transactions, suitable for audit, i.e., a transaction-
     based history of asset activity.” Specifically, section 6.3. of the Instruction on
     “Property Furnished to a Third Party” states:
             Although the Department of Defense may not have physical custody, to
             maintain effective property accountability and control and for financial
             reporting purposes, DoD Components shall establish records and
             maintain accountability for property (of any value) furnished to
             contractors as Government Furnished Property. This requirement also
             includes property that calls for either loaned and/or otherwise provided
             to outside entities such as Federal agencies, State and local
             governments, and foreign governments.

     See Appendix B for additional criteria.


Accountability for ISFF Purchases
     MNSTC-I was not always able to demonstrate proper accountability for and
     management of services, equipment, and construction purchased through ISFF
     and could not always demonstrate that the delivery of services, equipment, and
     construction was properly made to ISF.

     We examined receiving documentation for the 317 obligation transactions by
     subcategories: services, equipment, and construction projects. We reviewed
     documentation to determine whether MNSTC-I properly accounted for and
     delivered the items to ISF.

     Accountability for Service Purchases. MNSTC-I contracted for services such
     as food preparation, maintenance, sanitation, freight, lodging, and security. While
     MNSTC-I was not able to provide sufficient documentation for services, USACE
     GRD, which provides accounting support, was able to provide most of the
     documentation. We examined 112 transactions valued at $1.2 billion. MNSTC-I
     and USACE GRD had sufficient documentation for 95.5 percent of our sample of
     obligation documents. Of the 112 transactions, 107 met requirements for
     sufficient documentation, and 5 transactions had insufficient documentation.

             Military Interdepartmental Purchase Requests. One of the five
     transactions involved multiple Military Interdepartmental Purchase Requests
     (MIPRs) to the Department of State valued at $664 million, for which we were
     unable to obtain any documentation of service delivery.

     The Department of State MIPRs were to the Bureau for International Narcotics
     and Law Enforcement (INL). INL is responsible for assisting in the development
     of police capabilities. INL received portions of the funds appropriated to
     MNSTC-I for training Iraq police. INL provided trainers and advisors to assist
     MNSTC-I in developing public security structures and organizations, and
     developed a curriculum to train Iraq police and corrections personnel.




                                                4

While MNSTC-I correctly obligated the funds to INL, MNSTC-I did not oversee
the $664 million and did not receive or review any documentation on how INL
disbursed funds. Of the total transactions we reviewed, valued at $1.2 billion, the
MIPRs to INL for $664 million represent 55 percent of the total value of service
obligations.

        Maintenance Services. To see firsthand the types of maintenance
services provided, we visited maintenance facilities for wheeled and tracked
vehicles in Taji, Iraq. We observed maintenance services being performed on ISF
wheeled vehicles (see Figures 1 and 2). However, maintenance services on ISF
tracked vehicles were temporarily halted because of a lack of funding, according
to the contractor at the tracked maintenance facility (see Figure 3).




         Source: DoD IG auditors on April 14, 2007.

Figure 1. ISF Wheeled Vehicles Await Maintenance at Taji, Iraq




                                       5

         Source: DoD IG auditors on April 14, 2007.

Figure 2. ISF Jeeps Receive Maintenance at Taji, Iraq




         Source: DoD IG auditors on April 14, 2007.

Figure 3. A Tracked Vehicle Maintenance Facility Stands Nearly Empty
After Work Was Halted

       Prompt-Payment Discounts. We reviewed transactions to determine
whether MNSTC-I was realizing discounts for prompt-payment of invoices.
Overall, it appeared that MNSTC-I was paying invoices on time and was realizing
discounts. However, we found that the amount saved by paying invoices within 7
days had not been deducted from the obligation amounts recorded in the Corps of
Engineers Financial Management System (CEFMS). USACE GRD stated these
savings should have been detected in one of the triannual reviews and deobligated
accordingly. On April 1, 2007, we requested supporting documentation from the
triannual review for unliquidated obligations in our judgmental sample; however,
no documentation was provided. We found $1.1 million that did not appear to be

                                       6

           deobligated. In addition, we looked at other transactions not in our sample and
           found an additional $0.7 million that needed to be deobligated. The total of all
           discounts that had not been deobligated, $1.8 million, should be deobligated and
           returned to ISFF for reobligation. As a result of our review, MNSTC-I initiated
           an in-depth review (working with Joint Contracting Command-Iraq and USACE
           GRD) of open obligations and commitments, resulting in 950 documents being
           deobligated. According to the Commander, MNSTC-I, this review identified
           $831 million to be deobligated.

           After our fieldwork ended, on August 4, 2007, USACE GRD submitted a point
           paper stating the discount was recorded as an offset to the amount disbursed, not
           to the obligation line. However, MNSTC-I had no reports to show that discounts
           were captured and returned to the primary fund.

           Accountability for Equipment Purchases. We examined 51 obligations
           (comprising 154 obligation transactions) valued at $1.1 billion. Of the
           51 obligations, 38 were contract obligations comprising 124 transactions totaling
           $643.1 million, and 13 were MIPR obligations comprising 30 transactions valued
           at $442.7 million. The obligations were for up-armored vehicles, weapons,
           ammunition, garbage trucks, communications equipment, and medical supplies.

           MNSTC-I did not demonstrate proper accountability for and management of ISFF
           purchases and could not always demonstrate that the delivery of equipment was
           properly made to ISF. We went to USACE GRD to obtain documentation that
           would assist in developing an audit trail 1 for the contracts in the sample. Using
           documentation provided by MNSTC-I and USACE GRD, we were able to
           identify an audit trail from contract numbers to hand receipts for 12.9 percent or
           $82.9 million of the $643.1 million in equipment contract obligations we
           reviewed. We were unable to identify an audit trail for 99 percent of equipment
           MIPRs, worth $438.2 million.

                   Equipment Contract Obligations. We examined $643.1 million in
           equipment contract obligations. MNSTC-I and USACE GRD provided sufficient
           documentation establishing an audit trail for $82.9 million of equipment contract
           obligations for ISF. MNSTC-I and USACE GRD provided documentation for an
           additional $97.8 million of potential sample equipment contract obligations;
           however, documentation provided was insufficient and could not be linked to the
           receiving reports or contracts in question because identification numbers and
           posting references were missing. An identification number is the unique item
           identifier or DoD recognized item unique identifier equivalent, to be used when
           applicable. A posting reference is used to trace the equipment back to the original
           obligation document, such as a receiving report number, contract, purchase order,
           procurement identification number, or invoice number. In the end, MNSTC-I did
           not provide supporting documentation for the transfer or status of $560.2 million
           in sample equipment contract obligations. See Appendix B for details on DoD
           regulations on property accountability.




1
    According to DoD Instruction 5000.64, accountable property records will be kept current and shall
    provide a complete trail of all transactions, suitable for audit.

                                                      7

MNSTC-I does not have a process for tracking ISFF-purchased equipment during
the transfer of that equipment to ISF. Consequently, there is no end-to-end audit
trail for tracking equipment purchased through ISFF. We could not track from
purchase to transfer for two main reasons.

       •	 Receiving reports were not maintained or did not record serial or
          vehicle identification numbers at the time of government receipt.

       •	 Hand receipts were not maintained or did not record a posting
          reference to identify the transfer of equipment.

Therefore, MNSTC-I cannot identify which pieces of equipment from the
judgmental sample ISF received and cannot provide sufficient documentation that
equipment from the judgmental sample was indeed transferred to ISF.

      Equipment Not Accounted For. The following are examples of
equipment that MNSTC-I could not properly account for.

       •	 MNSTC-I could not account for 18 of 31 heavy tracked recovery
          vehicles purchased under W56HZV-06-D-D012 (Delivery Orders 1, 2,
          3, and 4) and valued at $10.2 million because a disconnect in the audit
          trail occurred at the time of government receipt in Umm Qasr, Iraq,
          when vehicle identification numbers were not recorded. In addition,
          hand receipts obtained did not record a posting reference to trace back
          to the contract. See Figure 4 showing an example of a heavy tracked
          recovery vehicle purchased under W56HZV-06-D-D012.




         Source: DoD IG auditors on March 17, 2007.

Figure 4. Heavy Tracked Recovery Vehicle From Contract W56HZV-06-D-
D012 Sits at Umm Qasr, Iraq

       •	 MNSTC-I could not prove that ISF received 2,126 of the
          2,943 generators purchased under contract W56HZV-06-D-D107
          (Delivery Orders 1 through 4) and valued at $7.0 million because a
          disconnect in the audit trail occurred at the time of government receipt
          at Abu Ghraib Warehouse, Iraq, when serial numbers were not
                                      8

                        recorded. Hand receipts we obtained did record serial numbers but did
                        not record posting references to trace back to the contract. See
                        Figure 5 for the 557 generators MNSTC-I could account for from
                        contract W56HZV-06-D-D107 at Abu Ghraib Warehouse. The
                        remaining 260 generators were to be delivered by the contractor to the
                        Abu Ghraib Warehouse.




                      Source: DoD IG auditors, April 19, 2007.

           Figure 5. Generators From Contract W56HZV-06-D-D107 in Abu Ghraib
           Warehouse, Iraq

                    •	 MNSTC-I could not account for 6 of 18 garbage trucks valued at
                       $0.7 million under contract W56HZV-04-D-B030 (Delivery Order 2)
                       that were delivered to Umm Qasr in April 2006. Receiving reports
                       obtained recorded vehicle identification numbers; however, MNSTC-I
                       could not track vehicle identification numbers to supporting
                       documentation to identify transfer or status of transfer to ISF.

                    •	 MNSTC-I could not prove that ISF received 12,712 of the
                       13,508 weapons 2 procured under contracts W914NS-05-D-9010
                       (Delivery Orders 4 through 8) and W91GYO-06-M-0713 for two
                       reasons. First, when the U.S. Government receives the weapons at the
                       Abu Ghraib Warehouse, serial numbers are not recorded. Second,
                       when the weapons leave the warehouse for delivery to ISF, although
                       their serial numbers are recorded, there are no references posted that
                       trace back to the acquiring contract.

                        MNSTC-I could account for 796 weapons from these two contracts
                        because these weapons were still in the warehouse and not distributed
                        to ISF. These weapons included 499 rocket-propelled grenade
                        launchers from contract W914NS-05-D-9010 and 297 machine guns


2
    These 13,508 weapons included 7,002 pistols, 3,230 assault rifles, 2,389 rocket-propelled grenade
    launchers, and 887 machine guns.

                                                      9

          from contract W91GY0-06-M-0713. See Figures 6 and 7 for
          examples of the weapons that were still in the warehouse.




              Source: DoD IG auditors, April 19, 2007.

Figure 6: Crates of Rocket-Propelled Grenade Launchers From Contract
W914NS-05-D-9010 in Abu Ghraib Warehouse, Iraq




        Source: DoD IG auditors, April 19, 2007.

Figure 7: Crates of Machine Guns From Contract W91GY0-06-M-0713 in
Abu Ghraib Warehouse, Iraq



                                      10 

       •	 MNSTC-I could not account for four fuel tankers, five tractor trailers,
          and six low boy trailers purchased under contract W56HZV-05-D-
          D022 (Delivery Orders 1 through 5) and valued at $1.5 million.
          Receiving reports that we obtained recorded vehicle identification
          numbers; however, MNSTC-I could not track vehicle identification
          numbers to supporting documentation to identify transfer or status of
          transfer to ISF. Figure 8 shows an example of a tractor trailer from
          contract W56HZV-05-D-D022.




        Source: DoD IG auditor on March 18, 2007.

Figure 8: Tractor Trailer From Contract W56HZV-05-D-D022 in Umm
Qasr, Iraq

       MIPRs for Equipment. We examined $442.7 million in sample
equipment obligation MIPRs. MNSTC-I was able to provide sufficient
documentation for only one MIPR transaction totaling $4.4 million. The
documentation provided by MNSTC-I supported the deobligation of funds.
MNSTC-I could not provide sufficient documentation to account for the
remaining $438.3 million in sample equipment obligation MIPRs.

Accountability for Construction Project Expenditures. MNSTC-I did not
perform proper accounting for completed construction projects, and the
management controls on incomplete construction projects needed improvement.
Specifically, MNSTC-I did not provide sufficient evidence to reconcile the
accounting and project status information in CEFMS and the Iraq Reconstruction
Management System. MNSTC-I uses the Air Force Center for Environmental
Excellence (AFCEE) and USACE GRD for contracting and construction
oversight, which includes maintaining documentation for an audit trail. However,
AFCEE was unable to provide adequate supporting documentation for our audit,
and MNSTC-I did not exercise sufficient management controls over construction
projects. DoD Components are required to provide reasonable assurance that
funds, property, and other assets are safeguarded against waste, loss, unauthorized
use, and misappropriation. We evaluated in detail completed construction
projects, incomplete construction projects, and MIPRs to USACE GRD for
construction projects.

                                      11 

                   Completed Construction Projects. MNSTC-I did not provide sufficient
           documentation verifying that the construction projects were completed and
           transferred to ISF. We reviewed documentation transferring the real property
           from the contractor to MNSTC-I to determine whether the construction project
           was fully accounted for. DoD Components are required to complete a
           DD Form 1354, “Transfer and Acceptance of Military Real Property,” for the
           transfer of real property to an outside organization so that an audit trail can be
           maintained. We examined 32 construction projects valued at $169.6 million that
           the Iraq Reconstruction Management System identified as completed. The
           obligated amount of the contract did not reconcile with the documentation for the
           transfer of the real property. The 32 completed construction projects fell into the
           following categories.

                    •	 For contract number FA8903-04-D-8677, Task Order 26, the
                       DD Form 1354 totaled $3.7 million. However, the Task Order is
                       obligated for $22.0 million.

                    •	 For contract number FA8903-04-D-8672, Task Order 20, the
                       DD Forms 1354 totaled $33.2 million with several duplicate forms.
                       However, the Task Order is obligated for $19.9 million.

                    •	 For contract number FA8903-04-D-8669, Task Order 6, the
                       DD Form 1354 did not have cost data.

                   Incomplete Construction Projects. The six incomplete construction
           projects were valued at $173.1 million. We did not audit the other 84 incomplete
           construction projects worth $646.6 million 3 because MNSTC-I stated it would be
           impractical to provide the supporting documentation for that many projects.
           Therefore, we narrowed our review to six projects that the Iraq Reconstruction
           Management System indicated were farthest from completion. For each of the six
           incomplete construction projects, we:

                    •	 examined daily reports provided by the contractor implementing the
                       construction project,

                    •	 examined daily reports provided by an independent contractor for
                       quality assurance, and

                    •	 interviewed applicable MNSTC-I and AFCEE personnel.

           AFCEE supports MNSTC-I with contract administration and oversight of
           construction projects. Therefore, AFCEE officials performed most of the direct
           contract oversight. AFCEE officials stated that for contractor oversight they rely
           primarily on daily reports by the independent contractor for quality assurance.
           MNSTC-I officials stated the independent contractor for quality assurance was
           more practical and less expensive than placing MNSTC-I or AFCEE personnel at
           the construction sites throughout Iraq.

           After reviewing the incomplete construction projects, we concluded that
           MNSTC-I and AFCEE needed better management controls over incomplete

3
    Out of the 84 incomplete construction projects for $646.6 million, 12 of the transactions valued at
    $977,052 are for fees paid to AFCEE for program and project management to support MNSTC-I.

                                                       12 

construction projects. Listed below are instances in which MNSTC-I and AFCEE
did not provide adequate oversight.

       •	 For contract number FA8903-04-D-8678, Task Order 137, AFCEE
          provided only one daily report prepared by the independent contractor
          for quality assurance, which did not record the project’s percentage of
          completion. Therefore, we could not verify the contractor’s stated
          percentage of completion. As of March 31, 2007, the construction
          contractor claimed the project was 55-percent complete. However, no
          one has been able to provide evidence, and we were unable to obtain
          any supporting documentation, indicating completion of 55 percent of
          the construction project.

       •	 For contract number FA8903-04-D-8670, Task Order 215, numerous
          buildings had been completed. We requested DD Forms 1354 to
          document the completion of the construction projects. However, the
          DD Forms 1354 do not provide the construction costs; therefore, we
          were unable to reconcile the contract costs with those of the completed
          buildings.

       •	 For contract number FA8903-04-D-8694, Task Order 17, the
          contractor did not renovate or build any new facilities. However, the
          contractor had received, as of May 31, 2007, $31.9 million of the
          $34.2 million total obligated amount. According to MNSTC-I, the
          Iraq Ministry of Defense was unable to obtain rights to the land to
          build the Iraq military facilities that were intended at that location.
          AFCEE officials stated that the construction project was canceled;
          however, MNSTC-I and AFCEE did not provide any official
          documentation canceling the project. According to AFCEE officials,
          the contractor operated a construction camp and procured raw
          materials for the construction project. However, the cost vouchers
          submitted by the contractor did not provide support for any materials
          being procured for the construction project. This task order may
          require litigation for resolution, according to AFCEE officials. The
          independent contractor for quality assurance was not at the site
          because construction was not started; therefore, no daily reports were
          provided to AFCEE.

       MIPRs to USACE GRD for Construction Projects. MNSTC-I did not
provide adequate oversight on the seven MIPRs valued at $26.4 million to
USACE GRD for construction projects. MNSTC-I was not able to provide the
contracts or the status of the construction projects.

        On April 15, 2007, we requested that USACE GRD provide contracts and
the status of the construction projects for our judgmental sample of MIPRs.
USACE GRD did not provide adequate documentation for our requests.
However, on July 23, 2007, we consulted with senior officials at the Defense
Finance and Accounting Service (DFAS) on our potential audit findings.
Afterwards, DoD officials provided our potential audit findings to USACE
Headquarters.

        On August 8, 2007, USACE Headquarters provided documentation for the
MIPRs from MNSTC-I. We reviewed the documentation to determine the status
of the construction projects, the amount owed the contractor for performance, and
                                    13 

    whether a government official verified that the work was actually completed by
    the contractor. Of the MIPRs worth $26.4 million, $25.6 million or 97 percent
    had adequate documentation to support that ISFF was properly accounted for and
    that ISF received the intended real property.


Controls and Procedures
    MNSTC-I did not have sufficient controls and procedures in place, did not
    maintain adequate oversight, and did not maintain accountable property records.
    In addition, MNSTC-I did not have adequate resources for efficient management
    of ISFF.

    MNSTC-I officials provided additional information on some of the causes of the
    problems identified. MNSTC-I depends on outside agencies to control and track
    certain processes in theater. For instance, USACE GRD provides financial
    systems support for ISFF expenditures made by MNSTC-I and is responsible for
    maintaining all supporting documents. These interagency relationships are
    critical to maintaining an end-to-end audit trail. MNSTC-I officials concur that
    they had insufficient resources to comply with all of the reporting requirements.

    Service Contracts. MNSTC-I lacked adequate policies and procedures to record
    the deobligation of discounts and did not conduct triannual reviews, as required
    by DoD FMR, volume 3, chapter 8, cection 080401, “Triannual Reviews of
    Commitments and Obligations.”

    Service MIPRs. MNSTC-I lacked adequate policies and procedures for
    adjusting accounts to reflect amounts paid in advance on the basis of the actual
    cost of equipment or services provided by the agency or unit filling the order.
    USACE GRD provided Intra-Governmental Payment and Collection System
    receipts recording the transfer of $664.0 million to the Department of State.
    However, neither USACE GRD nor MNSTC-I could demonstrate that the
    transfers were either advance payments or bills for delivery of equipment. In
    addition, MNSTC-I did not maintain adequate oversight once the $664.0 million
    was obligated to the Department of State. Therefore, it was not possible to
    determine whether all or any of the funds transferred to Department of State was,
    in fact, disbursed.

    MNSTC-I stated it did not have adequate staff for efficient management controls
    on service obligations. MNSTC-I had 16 people in the comptroller’s office
    during 2007 to provide oversight of $1.2 billion of ISFF in our judgmental sample
    of service obligations.

    Equipment Contracts. MNSTC-I lacked adequate policies and procedures and
    did not provide adequate oversight for an end-to-end audit trail of equipment
    purchased and transferred to ISF. MNSTC-I could not track equipment from
    contract issue to hand receipt on every sample equipment contract because there
    was no audit trail linking the equipment received at warehouses to the equipment
    issued to ISF. MNSTC-I relies heavily on other DoD Components in the field to
    do their part to ensure proper accountability. DoD Components in the field do not
    report directly to MNSTC-I. According to MNSTC-I, these constraints make it
    difficult to track individual procurements by contract.

                                        14 

Equipment MIPRs. On hand receipts for equipment issued to ISF, MNSTC-I
did not include the data elements required by DoD Instruction 5000.64. The lack
of accountable property records is a direct result of the omission of key data
elements such as posting references, serial numbers, and costs.

MNSTC-I officials stated they did not have adequate staff or management tools to
exercise management controls over equipment obligations. MNSTC-I had 64
people in its logistics office during 2007 to provide oversight of $1.1 billion
worth of ISFF equipment obligations we reviewed. As for management tools,
MNSTC-I used electronic spreadsheets to record how much equipment had been
issued to ISF. Given the amount of equipment issued to ISF, MNSTC-I officials
stated they need improved management tools for efficient oversight of equipment.

Construction. The foregoing difficulties in managing construction projects
occurred for the reasons listed below.

       •	 For completed construction projects, AFCEE officials stated that they
          were not including indirect costs in the DD Forms 1354. On
          April 18, 2007, AFCEE officials revised their standard operating
          procedures to ensure the accurate completion of DD Forms 1354 and
          began training staff on how to complete DD Forms 1354 and transfer
          real property to ISF.

       •	 For incomplete construction projects, MNSTC-I and AFCEE officials
          stated that they have too many projects to oversee; therefore, they
          usually rely on the independent contractor to ensure the construction
          projects are completed properly.

       •	 For MIPRs for construction projects, MNSTC-I did not have policies
          and procedures in place to ensure USACE GRD was completing those
          construction projects.

       •	 In addition, MNSTC-I had limited resources to ensure efficient
          management oversight of construction obligations. MNSTC-I had
          24 people in its engineering office during 2007 to provide oversight of
          129 ISFF projects totaling $1.0 billion identified in our judgmental
          sample for construction obligations.




                                   15 

Conclusion
    MNSTC-I was unable to provide reasonable assurance that ISFF achieved the
    intended results, that resources were used in a manner consistent with the mission,
    and that the resources were protected from waste and mismanagement. Without
    proper records, MNSTC-I cannot determine:

           •	 whether reimbursable MIPR funds transferred to external agencies
              were properly obligated and disbursed by those agencies;

           •	 what equipment is due in, due out, issued, and on hand; or

           •	 which construction projects have been completed and transferred to
              ISF.

    While we identified a large amount of equipment that was unaccounted for, we
    realize that it would not be feasible or prudent to request MNSTC-I to continue to
    try to account for that equipment. However, given the amount of equipment
    unaccounted for, it is imperative that MNSTC-I immediately address the
    recommendations in this report to rectify the problem.

    Because MNSTC-I received $5.2 billion in ISFF funds during FY 2005, and DoD
    received an additional $4.7 billion since then, MNSTC-I needs to improve its
    management controls to protect ISFF resources from waste and mismanagement.
    MNSTC-I should implement more supervisory checks, carry out additional
    physical inspections of construction sites, conduct internal audits, develop
    standard operating procedures, and develop suitable accounting tools to maintain
    an end-to-end audit trail. In addition, due to the lack of resources of MNSTC-I in
    the Iraq theater of operations, MNSTC-I, in conjunction with DFAS, should
    complete an assessment to determine which MNSTC-I functions could be
    transferred outside of Iraq to relieve strain on personnel.


Management Comments on the Finding and Audit Response
    Management Comments on Accountability for ISFF Purchases. The
    Commander, MNSTC-I provided comments on the finding and made suggestions
    for changes to the Executive Summary. Refer to the Management Comments
    section for the complete text of the comments. In addition, the Commander
    provided the following table comparing MNSTC-I oversight resources with those
    of other large commands in the United States.




                                        16 

        Comparison of Oversight Resources Available to U.S. Commands
                           (as of October 23, 2007)

                                                                               FY 2007
                  Command                         Auditors   Comptrollers       Budget

 Multi-National Security Transition
 Command-Iraq                                        1            16          $5.5 billion

 U.S. Army Training and Doctrine
 Command                                             8            64          $3.2 billion

 U.S. Army Forces Command                            6            47          $3.0 billion

 U.S. Army Tank-Automotive and
 Armaments Command, Life Cycle
 Management                                          7            45          $3.6 billion

Source: MNSTC-I

      The Commander also highlighted the level of violence in Iraq, stating that more
      than 80 percent of the violence in Iraq is limited to four provinces centered
      around Baghdad, although violence also exists in other population centers, such
      as Kirkuk, Mosul, and Basrah (as cited in the March and June 2007 - Section
      9010 report). The instability in Iraq affects the Coalition’s ability to move,
      communicate (voice and computer connectivity), deliver equipment, assess
      construction sites, and carry out oversight. According to the Commander, the
      level of violence in Iraq continued to rise during our site visit to Iraq (from March
      to May 2007), but began to decline shortly after we departed and has continued to
      decline since then.

      The Commander expressed his appreciation to us for helping MNSTC-I improve
      ISFF accountability and oversight. Furthermore, the Commander requested a
      follow-up inspection 90 days following the official release of this report.

      Audit Response. We considered management’s comments and revised the report
      as appropriate to include the Executive Summary. In conclusion, we will
      consider the Commander’s request for a follow-up inspection following the
      release of this report based on the availability of agency resources.


Recommendations, Management Comments, and Audit
  Response
      Revised Recommendations. As a result of management comments, we revised
      Recommendation 3. to clarify how MNSTC-I should indicate a need for proper
      staffing. We also removed the words “identify discounts” from Recommendation
      5. because CEFMS automatically calculates the discounts at the time of
      disbursement.
                                           17 

We recommend that the Commander, Multi-National Security Transition
Command-Iraq:

       1. Establish internal controls and specific procedures for forward-
       deployed personnel to follow in maintaining adequate oversight of
       obligated funds and retaining accountable property records for
       expenditure of wartime funding.

MNSTC-I Comments. The Commander, MNSTC-I concurred. The
Commander provided a draft property accountability standard operating
procedure for equipment distribution and accountability that is applicable to all
MNSTC-I activities. The Commander stated MNSTC-I partnered with AFCEE to
develop a standard operating procedure to improve procedures for transfer and
acceptance of real property. The Commander stated MNSTC-I reviewed and
removed the duplicate DD Forms 1354 identified in our report and that MNSTC-I
has corrected and updated other DD Forms 1354. In addition, the daily reports
from the independent contractor for quality assurance were updated to reflect the
status of construction projects. The Commander also stated MNSTC-I has
established a collaborative Web portal in order to increase transparency and
accountability of construction efforts. Moreover, MNSTC-I set up an accounting
section within the comptroller’s office to improve overall accounting processes.
According to the Commander, this new section will ensure accurate and timely
oversight of documents and provide an in-depth review of all accounting
transactions. MNSTC-I established an internal auditing process to monitor
various daily, weekly, and monthly reports on all commitments and obligations in
the accounting system. Furthermore, MNSTC-I established a training plan to
develop a baseline of requirements and expectations for the accounting section.
The estimated completion date for all these actions is November 30, 2007.

Audit Response. The Commander’s comments are fully responsive.

       2. Develop standard operating procedures for processing, managing,
       and overseeing Military Interdepartmental Purchase Requests.

MNSTC-I Comments. The Commander concurred. The Commander stated that
MNSTC-I will produce a standard operating procedure for processing, managing,
and reviewing MIPRs following the completion of the triannual review.
MNSTC-I is working on a training package to distribute to individuals receiving
MIPRs and made continuity books showing the processes and reconciliation of
MIPRs. Furthermore, the Commander stated that MIPRs would be reconciled
monthly in the future. The expected completion date is November 30, 2007.

Audit Response. The Commander’s comments are fully responsive.

       3. Identify personnel requirements for proper sourcing in the Joint
       Manning Document it submits through Multi-National Force-Iraq,
       U.S. Central Command, to the Joint Staff and the Office of the
       Secretary of Defense.

MNSTC-I Comments. The Commander nonconcurred. The Commander
concurred with identifying personnel requirements for proper sourcing in the Joint
Manning Document it submits through Multi-National Force-Iraq, U.S. Central
Command, to the Joint Staff and the Office of the Secretary of Defense.
According to the Commander, MNSTC-I is conducting a bottom-up review of
                                    18 

MNSTC-I functions to determine appropriate staffing requirements. Estimated
completion date of the MNSTC-I bottom-up review is November 1, 2007.

Audit Response. The Commander’s comments are fully responsive. Because of
the Commander’s comments, we revised Recommendation 3. to require
MNSTC-I to identify personnel requirements for proper sourcing in the Joint
Manning Document it submits through Multi-National Force-Iraq, U.S. Central
Command, to the Joint Staff and the Office of the Secretary of Defense.

       4. Establish standard operating procedures that will ensure
       compliance with the DoD Financial Management Regulation in
       performing and documenting triannual validation reviews of
       unliquidated obligations.

MNSTC-I Comments. The Commander concurred. The Commander stated that
MNSTC-I has established an accounting section to improve overall accounting
processes that include reviews of system reports daily, weekly, and monthly. The
Commander states that MNSTC-I will ensure oversight of documents and provide
in-depth review of all documents in the accounting system. In addition, the
Commander stated that MNSTC-I, as part of the new process, will conduct
25 percent of the triannual review each quarter in the future.

Audit Response. The Commander’s comments are fully responsive.

       5. Establish controls to deobligate funds in an efficient manner.

MNSTC-I Comments. The Commander partially concurred. The Commander
concurred with establishing controls to deobligate funds in an efficient manner.
The Commander stated that controls to identify discounts in an efficient manner
already exist. According to the Commander, MNSTC-I worked with Joint
Contracting Command-Iraq and USACE GRD to initiate an in-depth review and
validation of all open obligations and commitments. As of September 14, 2007,
the review revealed 950 documents to be deobligated, freeing up $831 million.
The Commander states that actions to comply with the recommendation have
been completed.

Audit Response. The Commander’s comments are fully responsive. We
removed the words “identify discounts” from Recommendation 5. because
CEFMS automatically calculates the discounts at the time of disbursement.

       6. In conjunction with the Defense Finance and Accounting Service,
       conduct an assessment of financial management functions (such as
       financial reporting, accounts payable, and cost accounting) that could
       be transferred outside of Iraq to ease the strain on the Command’s
       accounting personnel.

MNSTC-I Comments. The Commander concurred. The Commander stated that
DFAS performed an initial assessment of MNSTC-I financial management
functions in September 2007 and that two DFAS accountants are being
transferred to the MNSTC-I accounting cell (due to arrive in November 2007).
According to the Commander, plans are being developed to retrograde financial
management functions to the continental United States where feasible.
Furthermore, the Commander stated that MNSTC-I has coordinated with the U.S.
Central Command Lean Six Sigma team for a review of processes for
                                    19 

improvement in the first quarter of 2008. According to the Commander,
MNSTC-I actions on this recommendation have been completed.

Audit Response. The Commander’s comments are fully responsive.

DFAS Comments. Although not required to comment, the Director, DFAS
Indianapolis Operations concurred. The Director stated that DFAS performed an
initial assessment of MNSTC-I financial management functions and that actions
are in process to augment the existing MNSTC-I accounting cell with two DFAS
accountants. The Director also stated that plans are being developed to
retrograde, where feasible, financial management functions to the continental
United States. In addition, the DFAS MNSTC-I support cell will help staff
improve financial execution, reconciliations, training, reporting, and audit
support. The estimated date of completion is March 30, 2008.

Audit Response. The comments of the Director are fully responsive.

USACE Comments. Although not required to comment, the Chief Audit
Executive from the USACE Headquarters Internal Review Office provided
comments on the draft report regarding prompt-payment discounts. The Chief
Audit Executive stated that CEFMS automatically records each discount, returns
the discount to the obligation, deobligates the discount, and returns the discount
amount to the funding account.

Audit Response. We concur that CEFMS automatically calculates the discounts
for transactions as the Chief Audit Executive stated. However, sufficient
documentation has not been provided to show that all discounts taken were
deobligated and returned to the funding account.




                                    20 

Appendix A. Scope and Methodology 

   We conducted this performance audit from February 2007 through October 2007
   in accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objective. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objective.

   We planned the audit in three phases. In the first phase, we examined how the
   Office of the Under Secretary of Defense (Comptroller) and the Office of the
   Assistant Secretary of the Army for Financial Management and Comptroller
   distributed the $5.7 billion for ISFF to determine whether the distribution
   complied with the 14 provisions of Public Law 109-13 and applicable
   appropriations law. We determined that the funds were distributed properly.

   In the second phase, we examined whether the obligations recorded for MNSTC-I
   using ISFF were made in accordance with legislative intent and applicable
   appropriations law. We reviewed a randomly selected sample of 100 obligations
   made by MNSTC-I (comprising 395 obligation transactions) valued at
   $3.3 billion from a universe of 1,074 obligations (comprising 2,114 obligation
   transactions) and valued at $4 .6 billion. As of June 30, 2006, the Commander,
   MNSTC-I had obligated $4.6 billion of the $5.2 billion as required by Public
   Law 109-13.

   In this phase, the third phase, we reviewed Public Laws, the Federal Acquisition
   Regulation, DoD regulations, memos from the Office of the Secretary of Defense,
   and standard operating procedures on providing services, equipment, and
   construction to ISF. Our audit objective was to determine whether MNSTC-I
   properly accounted for the services, equipment, and construction purchased for
   ISF using ISFF and whether the delivery of services, equipment, and construction
   was properly made. In addition, we examined processes for issuing equipment at
   Umm Qasr and Abu Ghraib Warehouse.

   Scope Limitations. The audit was limited to the review of MNSTC-I
   management controls for ISFF. Strict time and resource constraints caused us to
   narrow the audit scope to the key management controls reviewed during this
   audit. We did not test the supporting documentation for construction projects and
   services. We did not physically inspect construction sites to verify that ISF
   occupied facilities whose construction MNSTC-I declared complete.
   Furthermore, we did not observe contractors performing their contracted services.
   We examined supporting documentation to verify that a government official
   approved and inspected the construction site or services received from the
   contractors. The construction projects built and services performed by
   contractors were transferred to ISF throughout Iraq. We did not visit most of ISF
   sites or construction sites because of logistics and security impracticalities. As a
   result, there is a possibility that the documentation we relied upon for
   construction and services projects may be inaccurate. However, the
   overwhelming amount of supporting documentation received supports our audit
   finding of flaws in the accountability of ISFF.

                                        21 

Audit Universe. Resource management personnel of the USACE GRD recorded
the incurred obligations of MNSTC-I. As of June 30, 2006, we extracted an audit
universe of 1,074 obligations from CEFMS. The 1,074 obligations comprised
2,114 obligation transactions valued at $4.6 billion. As of June 30, 2006,
$4.6 billion had been obligated from the $5.2 billion provided to the Commander,
MNSTC-I, as required by Public Law 109-13.

Judgmental Sample. Our initial sample was a statistical sample of
100 obligations comprising of 395 obligations transactions valued at $3.3 billion.
We attempted to obtain receiving reports, real property transfer hand receipts,
equipment hand receipts, and warehouse inventories. However, due to time
constraints and the inability of MNSTC-I to produce the documentation, we
reduced our statistical sample in two ways:

       •	 For equipment transactions with a value of less than $50,000, we did
          not pursue hand receipts but stopped with the DD Form 250, “Material
          Inspection and Receiving Report.”

       •	 We then narrowed our review to 6 of 84 incomplete construction
          project transactions. We selected six projects that were 50-percent
          complete or less and reviewed management controls on those projects.
          The majority of the 84 transactions were reported as 80- to 95-percent
          complete.

Therefore, our judgmental sample for Phase III was 317 obligation transactions
valued at $2.7 billion. The categories making up that judgmental sample were
112 services obligation transactions valued at $1.2 billion, 154 equipment
obligation transactions valued at $1.1 billion, and 51 construction obligation
transactions valued at $0.4 billion.

Audit Projection. Because of the above-mentioned scope limitations—made
after the Quantitative Methods Directorate at the Office of Inspector General
randomly selected a sample—the audit cannot be projected to the audit universe.

Use of Computer-Processed Data. The audit relied on computer-processed data
from CEFMS. Data from CEFMS were used to establish an audit universe for the
audit. The audit universe was used by the Quantitative Methods Directorate at the
Office of Inspector General to select a statistical sample for testing the incurred
obligations. We did not perform a reliability assessment of the computer-
processed data from CEFMS. We did not find errors that would preclude use of
the computer-processed data to meet the audit objective or that would change the
conclusions reached in the review of our judgmental sample.

Use of Technical Assistance. We received technical assistance from the DoD
Office of Inspector General’s Quantitative Methods Directorate.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Defense Financial Management high-risk area. In
addition, this audit pertains to the high-risk areas of DoD Supply Chain
Management, DoD Weapons Systems Acquisition, Contract Management, and
Management Interagency Contracting.


                                    22 

Prior Coverage 

      During the last 5 years, the Government Accountability Office (GAO), the
      Special Inspector General for Iraq Reconstruction (SIGIR), and the Department of
      Defense Inspector General (DoD IG) have issued five reports discussing Iraq
      Security Forces. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted SIGIR reports can be accessed over the
      Internet at http://www.sigir.mil. Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-07-711, “Stabilizing Iraq: DOD Cannot Ensure That U.S.-
      Funded Equipment Has Reached Iraqi Security Forces,” July 2007

      GAO Report No. GAO-07-308SP, “Securing, Stabilizing, and Rebuilding Iraq:
      Key Issues for Congressional Oversight,” January 2007

SIGIR
      SIGIR Report No. SIGIR-06-033, “Iraqi Security Forces: Weapons Provided by
      the U.S. Department of Defense Using the Iraq Relief and Reconstruction Fund,”
      October 2006

DoD IG
      DoD IG Report No. D-2007-060, “Management of the Iraq Security Forces Fund
      in Southwest Asia - Phase II,” February 2007

      DoD IG Report No. D-2007-030, “Management of the Iraq Security Forces Fund
      in Southwest Asia - Phase I,” December 2006




                                         23 

Appendix B. Criteria 

    Federal Guidance. Public Law 97-255, “Federal Managers Financial Integrity
    Act of 1982,” September 8, 1982, states internal accounting and administrative
    controls shall be established in accordance with standards prescribed by the
    Comptroller General, and shall provide reasonable assurances that:

           •	 obligations and costs are in compliance with applicable law;

           •	 funds, property, and other assets are safeguarded against waste, loss,
              unauthorized use, or misappropriation; and

           •	 expenditures applicable to operations are properly recorded and
              accounted for to maintain accountability over the assets.

    Office of Management and Budget Circular No. A-123, “Management
    Accountability and Control,” June 21, 1995, states that management controls have
    to reasonably ensure that programs achieve their intended results. Resources are
    used consistent with agency mission. Programs and resources are protected from
    waste, fraud, and mismanagement. Reliable and timely information is obtained,
    maintained, reported and used for decision making.

    DoD Guidance. DoD Instruction 5000.64, “Accountability and Management of
    DoD-Owned Equipment and Other Accountable Property,” November 2, 2006,
    states that DoD Components, which includes MNSTC-I, shall:

           •	 be accountable for and manage all property acquired, leased, or
              otherwise obtained throughout an asset's lifecycle;

           •	 establish accountable property systems of record; ensure their
              appropriate integration with core financial and other systems and
              processes, particularly those for logistics and acquisition; and

           •	 establish implementing regulations and procedures, including the
              assessment and reporting of its overall property management maturity
              level.

    To maintain adequate property records, DoD Components shall maintain property
    records that have a unit acquisition cost of $5,000 or more and assets that are
    sensitive or classified. Property records will be kept current and shall provide a
    complete trail of all transactions, suitable for audit, i.e., a transaction-based
    history of asset activity. Documentation (calls for either original documents or
    hard, or both, and electronic copies of original documentation) shall be
    maintained in a readily available location, during the applicable retention period,
    to permit the validation of information pertaining to the asset such as the purchase
    cost, purchase date, and cost of improvements. Supporting documentation may
    include, but is not limited to, purchase invoices or sales and procurement
    contracts. Although the Department of Defense may not have physical custody,
    to maintain effective property accountability and control and for financial
    reporting purposes, DoD Components shall establish records and maintain
    accountability for property (of any value) furnished to contractors as Government

                                         24 

Furnished Property. This requirement also includes property that calls for either
loaned or otherwise provided to outside entities such as foreign governments.

The following data elements, at a minimum, are required of accountable property
systems of record:

       •	 name, part number and description (noun, nomenclature), model
          number and National Stock Number, if known;

       •	 quantity (e.g., calls for either received or fabricated, or both, issued,
          and on-hand) and unit of measure;

       •	 value at full cost (baseline and net book value), if applicable; or
          original acquisition cost if the property does not require capitalization;

       •	 unique Item Identifier or DoD recognized Item Unique Identifier
          equivalent, if available and necessary for unique identification; and

       •	 posting reference (e.g., receiving report number, contract, purchase
          order, or other procurement identification number, invoice number).

DoD FMR, Volume 3, Chapter 8, “Standards for Recording and Reviewing
Commitments and Obligations,” states fund holders, with assistance from
supporting accounting offices, shall review commitment and obligation
transactions for timeliness, accuracy, and completeness during each of the four
month periods ending on January 31, May 31, and September 30 of each fiscal
year. Furthermore, DoD FMR, Volume 3, Chapter 8, Section 080401, “Triannual
Reviews of Commitments and Obligations,” states the requirement for reviews of
commitments and obligations applies to all appropriations and funds of all DoD
Components. This requirement applies not only to direct appropriations, but also
to all reimbursable transactions, as well as the Department’s revolving and trust
funds.

DoD FMR, volume 3, chapter 8, section 080402, “Responsibilities of Accounting
Offices,” prescribes that:
       [A]ccounting offices shall provide fund holders with listing(s) or
       automated media identifying both outstanding commitments and
       unliquidated obligations recorded for the funds holder. The accounting
       office also shall provide listing(s) or automated media identifying
       accounts payable and accounts receivable which enable the funds
       holder to verify proprietary accounts (as well as budgetary accounts)
       and, thus, ensure that proprietary and budgetary accounts are valid,
       accurate and reconciled. The transaction media must be such that the
       review can be documented and individual transactions can be annotated
       if the review reveals further action is required.

The DoD FMR states that the accounting office, if requested, shall assist fund
holders in the conducting their reviews by:
       a. Assisting in the identification and organization of transaction
       groupings in such a manner so as to facilitate the review by different
       segments of the funds holder’s organization;


                                        25 

       b. Assisting in the identification and correction of situations that may 

       delay the recording of commitments or obligations, or the matching of 

       disbursements to obligations; and 


       c. Entering corrections identified by the funds holder when such 

       corrections are adequately documented and the entry of such 

       transactions is the normal function of the accounting office. 


DoD FMR, volume 3, chapter 8, section 080403, “Responsibilities of Fund 

Holders,” reads that fund holders are responsible for conducting reviews of

outstanding commitments and unliquidated obligations (to include accounts 

payable and accounts receivable), irrespective of whether the funds holder or the

accounting office actually records the commitments or obligations in the official 

accounting records. This responsibility is placed on the funds holder because the

funds holder initiates those actions that result in commitments and obligations 

and, therefore, is in the best position to determine the accuracy and the status of 

such transactions. The following minimum reviews shall be accomplished by the 

funds holder no later than 14 days following the end of January and of May, as

well as by September 30 of each fiscal year. 


DoD FMR, volume 11A, chapter 3, section 030101, on “Economy Act Orders,” 

prescribes “policies and procedures applicable to transactions where services,

equipment, and construction are procured from other federal agencies under the 

Economy Act, Title 31, United States Code, Sections 1535 and 1536.” In 

addition, transactions include interservice and intergovernmental support, where 

an activity needing supplies or services obtains them from another activity. 

Within DoD, Economy Act orders typically are executed by issuance of 

DD Form 448, “Military Interdepartmental Purchase Request (MIPR).” 


According to DoD FMR, volume 11A, chapter 3, section 030501, an Economy 

Act order may: 

       [B]e placed on any form that is acceptable to both the requesting and 

       servicing agencies involved based upon the documentation standards in 

       Chapter 1, paragraph 010204, of this Volume. Typically, between 

       DoD Components, a DD Form 448, MIPR is used to place the order. A 

       DD Form 448-1, “Acceptance of MIPR,” is used to show acceptance. 

       Economy Act orders may be placed on a reimbursable or direct fund 

       citation basis. Whether the order is on a reimbursable or direct cite 

       basis generally is negotiated between the two parties. An Economy 

       Act order should include: 


           A. A description of the supplies or services ordered;

           B. Delivery requirements;

           C. A funds citation (either direct or reimbursable);




                                         26 

           D.	 A payment provision which may include the citation of the
               account number associated with a DoD purchase card
               (acquired under the General Services Administration Smart
               Pay Program) or the United States of America Card (acquired
               from the Treasury Department); and

           E.	 Acquisition authority as appropriate.

DoD FMR, volume 11a, chapter 3, section 030502, states that payment shall be
made promptly upon the written request (or billing) of the agency or unit filling
the order. Payment may be made in advance or upon delivery of the services,
equipment, and construction ordered and shall be for any part of the estimated or
actual cost as determined by the agency or unit filling the order. A bill submitted
or a request for payment is not subject to audit or certification in advance of
payment. Proper adjustment of amounts paid in advance shall be made as agreed
to by the heads of the agencies or units on the basis of the actual cost of services,
equipment, or construction provided.

Furthermore, DFAS Indianapolis Regulation 37-1, Chapter 12, “ORDERS,
EARNINGS AND BILLINGS,” September 2000, calls for either documentation
to support the recording of reimbursements earned, (consists of job orders, issue
and turn-in slips, shipping documents, sales documents or equivalent instruments
that are evidence of performance) or administratively prepared estimates of
accruals where performance documents do not exist. At a minimum, earnings
documents will include:

       •	 a dollar amount of the earning;

       •	 a complete description of the services performed or supplies issued;

       •	 the period of performance;

       •	 identification of the earnings, to match them with the related order;
          and

       •	 name and telephone number of the performing activity.

Unified Facilities Criteria 1-300-08, “Criteria for Transfer and Acceptance of
Military Real Property,” June 30, 2004, is applicable to all DoD Components, and
it requires a DD Form 1354, “Transfer and Acceptance of Military Real
Property,” for the transfer of real property to an outside organization, like the Iraq
Government. A DD Form 1354 requires at least the following data elements:

       •	 contract number with the delivery order number;

       •	 category code description, which identifies the facility;

       •	 cost of the facilities; and

       •	 the signature and title of the individual responsible for accepting
          accountability for the properties described on the DD Form 1354.



                                        27 

Appendix C. Equipment Distribution Processes
   According to MNSTC-I, USACE GRD, and contractor support personnel, the
   following three figures show the equipment distribution process for providing
   equipment to ISF, as of March 2007. More specifically, the second and third
   figures in the appendix show the processes for receiving, accepting, storing, and
   transferring equipment to ISF through Umm Qasr and Abu Ghraib Warehouses,
   as of March and April 2007 respectively.




   Figure C-1. Equipment Distribution Processes for ISF

   MNSTC-I Item Managers: The determination of requirements done by the
   planners in MNSTC-I J5, Coalition Military Assistance Training Team, and
   Civilian Police Assistance Training Team. Once the requirement is established,
   officials in MNSTC-I J4 determine what items are on-hand and what must be
   procured. The J4 works closely with the planners to ensure the most effective and
   efficient means is used to distribute the equipment.

   Joint Contracting Command-Iraq: MNSTC-I does not have contracting officers
   within its organization. Therefore, the majority of equipment needing
   procurement is contracted by the Joint Contracting Command–Iraq. However,
   MNSTC-I also uses MIPR to “piggyback” off existing contracts. Therefore,
   much of their procurement goes through numerous other commands. Examples of
   other contracting agencies include the USACE GRD; the U.S. Army TACOM
   Life Cycle Management Command; the Defense Logistics Agency; the AFCEE;
   the U.S. Army Medical Materiel Center, Europe; and the Defense Security
   Cooperation Agency.

   Primary Points of Entry: If equipment is arriving via aircraft, the majority of the
   time it lands at the Baghdad International Airport. If it comes by sea, Iraq has

                                        28 

only one seaport, Umm Qasr. Both sites are owned and operated by the Iraqi
Ministry of Transportation.

Logistics Movement Coordination: The Logistics Movement Coordination
Center is the logistics nerve center for equipment destined for Iraq Government
agencies. It's official mission is to provide all resources including equipment,
supplies, personnel, administration, and management required to plan, organize,
facilitate, direct, control and perform necessary logistics, supply, maintenance,
communication, and transportation functions to receive, accept, account for, hold,
store, secure, pick, repackage, and redistribute equipment, supplies, and material.
Operate and maintain two Distribution Center Warehouse and Staging Areas at
the Port of Umm Qasr and Abu Ghraib Warehouse as part of a supply chain
management system supporting the reconstitution of Iraqi Security Forces and
reconstruction support of Iraq Civil Infrastructure. Operations also include the
management and receipt of inventory at Baghdad International Airport and
Basrah Airport. Lastly, coach, train, and mentor an Iraqi workforce for the
eventual turnover of this compound and operation solely into the hands of the
Iraqis.

Umm Qasr and Abu Ghraib Warehouses: The two main warehouses are Umm
Qasr and Abu Ghraib Warehouses. Both sites are manned by a small US
Government contingent, but primarily run by a USACE GRD contractor.
Security is provided by contractors at Umm Qasr and Kurdish Militia at Abu
Ghraib Warehouse. Abu Ghraib Warehouse also uses a large contingency of local
Iraq workers. Quality assurance inspectors are located at both sites. The quality
assurance inspectors are the US Government officials that inspect all incoming
equipment for damage and completeness. They sign the DD Form 250 receiving
reports. At that point, the US Government takes official ownership and
responsibility for the equipment. If items are rejected, the contracted company
must send a representative to the location to fix the discrepancy since they still
own the product until accepted by the US.

Regional Support Units and Garrison Support Units: The Regional Support Units
and Garrison Support Units are the retail warehouses for distribution of
equipment. Once equipment is dropped off at these locations, the equipment
belongs to the Iraq Government since these sites are completely owned and
operated by them. These are the primary locations for Iraqi units to pick up their
equipment. When equipment is dropped off, the receiving station signs a
contractor generated receipt and an Iraqi Army Form 102. Current RSU/GSU
locations include the BIAP, Al Kasik, Al Asad, An Numaniyah, Ar Rustamiyiah,
Habbaniyah, Kirkuk, Tallil, and Taji National Depot.

Other Potential Points of Entry: Equipment transported by sea can be dropped off
at Kuwait, Turkey, and Jordan. These locations may incur tariffs and added
levels of bureaucracy, but allow for certified shippers to be used. However, these
locations require ground transportation through large areas of Iraq since the
quality assurance inspectors are located at Umm Qasr and Abu Ghraib
Warehouse.




                                    29 

   1.	 Equipment                 2. Freight                    3. Quality
       Arrives                   Forwarders                    Assurance
                                                               Inspection


                   5. Exceed                    4. Receiving
                    Database                       Reports



                                7. Picked for               8. PWC/Agility
     6. Storage                  Movement                      Transports




Figure C-2. Equipment Processes at Umm Qasr, Iraq

1. Umm Qasr is administered by the Iraqi Port Authority, with the Umm Qasr
Port Manager reporting to the Iraqi Director General of Ports, who in turn reports
to the Iraqi Minister of Transportation. Iraqi Military, Port Personnel, and Private
Iraqi Security are noticeable security forces at the port.

Cargo is primarily and almost exclusively received at the North Port via ships,
however there are some overland shipments received. Equipment is shipped to
Iraq whatever way the contractor decides to send the cargo. When cargo arrives
at the North Port, the Freight Forwarders identify equipment and off-load the
ships. The North Port only has two operating cranes, one Roll on- Roll off ramp,
and one vehicle ramp. When possible, most cargo shipments are unloaded by
hand.

2. Freight Forwarders, which are all Iraqi Companies, are responsible for getting
cargo to the main compound. A USACE GRD contractor owns and operates the
main compound at Umm Qasr.

3. American contractors, under USACE GRD, who perform the inspection of
equipment can not physically touch the items until unloaded within the main
compound or soft stand area. Defense Contract Management Agency performed
quality assurance at Umm Qasr until December 2006. There was no overlap in
quality assurance because USACE GRD did not take over the role until January
2007. Inspectors perform their duties within the main compound and outside lot
area for vehicles and large equipment.

4. Quality assurance personnel will inspect and accept equipment by signing
receiving reports (most often DD Forms 250), which then are provided back to
finance offices in the United States for proper payment. Deficiencies with the
equipment that do not pass inspection are reported back to the original
contractor/supplier of the equipment.

5. Quality assurance personnel provided receiving reports to the PWC/Agility
personnel, who will input the shipments into the Exceed Database. Once
information is put into the database all the Iraqi Ministries can view their
available equipment. Exceed is the software system utilized by PWC/Agility to
                                     30 

manage warehouse inventories. It is accessible via a web portal for customers
and a remote desktop for administrators.

6. The equipment is stored within the main compound and outside lot area. The
main compound is 26,000 square meters with a 10-foot concrete wall with single
strand concertina wire surrounding the perimeter. The main compound is
comprised of two large warehouses, watchtowers and only one Entry/Exit Point.
The soft stand area is surrounded by a chain-link fence and a single layer of
barriers, contains watchtowers and only one Entry and Exit Point, which enters
into the main compound.

7. The Logistics Movement Coordination Center is headquartered at Camp
Freedom Compound within the International Zone, Iraq. The Logistics
Movement Coordination Center organizes the missions to move cargo throughout
Iraq for all the Ministries. The Logistics Movement Coordination Center sets up
the cargo convoys, which move requested equipment to their final destinations
within Iraq. The Logistics Movement Coordination Center uses Logistic Support
Requests received from the various Commands (for example, MNSTC-I) to
determine and coordinate convoy movements.

When the Logistics Movement Coordination Center determines which equipment
is to be shipped, the equipment is picked or pulled for transport by USACE GRD
contractor personnel.

8. The USACE GRD contracting company located at Umm Qasr retains all
records pertaining to equipment shipped out of that location. The contracting
company under USACE GRD maintains transportation records, which identify
items, dates, and locations for each transport. Some times equipment
identification numbers and/or contract numbers are tracked back to a convoy via
mission numbers assigned.




                                   31 

    1. Equipment               2. Accountability                  3. Quality
       Arrives                   of Equipment                     Assurance
                                   Received                       Inspection


                   5. Exceed                       4. Receiving
                    Database                          Reports



                                 7. Picked for                8. PWC/Agility
      6. Storage                  Movement                       Transports




Figure C-3. Equipment Processes at Abu Ghraib Warehouse, Iraq

1. Equipment coming into the Abu Ghraib Warehouse Compound is first
positioned at the open deck receiving area behind the main warehouse known
as W100. After convoy paperwork is verified, warehouse personnel employed by
the USACE GRD contractor unload and separate the cargo by contract number.

2. Warehouse personnel inspect, count, and repackage the equipment into smaller
more controllable pallets.

3. American contractors, under USACE GRD, must inspect and accept the
equipment. USACE GRD took over performing quality assurance roles at Abu
Ghraib Warehouse in January 2007. At time of our site visit, USACE GRD
employed only one quality assurance reviewer at Abu Ghraib Warehouse.
Defense Contract Management Agency performed quality assurance at Abu
Ghraib Warehouse until December 2006. There was no overlap in quality
assurance and not all records from the prior quality assurance reviews were
available.

4. Quality assurance personnel inspect and accept equipment by signing
receiving reports (most often DD Forms 250), which then are provided back to
finance offices in the United States for proper payment.

5. Quality assurance personnel provide receiving reports to the USACE GRD
contractor personnel. The quality assurance reviewer currently at Abu Ghraib
Warehouse also provides the USACE GRD contractor personnel with the contract
information. All dollar values are blacked out on the contract and receiving
reports, however having the contract information helps all involved understand
what has been received and what is still expected. Using the contract information
and receiving report information, the USACE GRD contractor personnel input
data into the Exceed Database. This Exceed Database is the same database used
at Umm Qasr.

6. Equipment is stored within 64 warehouses comprising more than
810,000 square feet of covered space and an outside storage lot for vehicles, with

                                    32 

a capacity of approximately 5,000. Equipment is separated into categories, for
example: Warehouse 100 is the main warehouse (used for a number of functions)
with use of cameras in designated areas for surveillance over weapons,
computers, printers, copiers, and electronic equipment; Warehouse 200 is for
office supplies; Warehouse 202 is for climate controlled items; and
Warehouse 300 is used for medical storage. Ammunition is stored in old airline
hangers with security guards providing extra surveillance.

Every three weeks a full 100-percent accountability of all items at Abu Ghraib
Warehouse is conducted (by hand) by USACE GRD contractor personnel.
USACE GRD contractor personnel do an inventory on ammunition and other
sensitive items every Thursday.

7. The Logistics Movement Coordination Center is headquartered at Camp
Freedom Compound within the International Zone, Iraq. The Logistics
Movement Coordination Center organizes the missions to move cargo throughout
Iraq for all the Ministries. The Logistics Movement Coordination Center sets up
the cargo convoys, which move requested equipment to their final destinations
within Iraq. The Logistics Movement Coordination Center uses Logistic Support
Requests received from the various Commands (for example, MNSTC-I) to
determine and coordinate convoy movements.

When the Logistics Movement Coordination Center determines which equipment
is to be shipped, the equipment selected and picked for transport is relocated to
Charlie Bay within Warehouse 100, the main warehouse. If there is not enough
room within Warehouse 100, the remain equipment selected and picked for
transport is stored on semi trucks.

8. The USACE GRD contractor performs the cargo movement as well. Cargo
manifests are drawn to illustrate where and what quantities of items are on every
cargo truck. The equipment on the shipping lists and shipment summaries are
identified by the stock keeping unit code and not contract numbers.




                                    33 

Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers

Department of the Navy
Auditor General, Department of the Navy
Naval Inspector General

Department of the Air Force
Auditor General, Department of the Air Force
Director, Air Force Center for Environmental Excellence

Combatant Commands
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. Central Command
  Commander, Multi-National Forces-Iraq
  Commander, Multi-National Security Transition Command-Iraq
  Commander, Joint Contracting Command-Iraq/Afghanistan

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget
                                          34 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Oversight and Investigations, Committee on Armed Services
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                        35 

Multi-National Security Transition Command-
Iraq Comments
                                                                                                           Final Report
                                                                                                            Reference



                   MULTI-NATIONAL SECURITY TRANSITION COMMAND - IRAQ 

                              NATO TRAINING MISSION - IRAQ 

                                       Baghdad, Iraq 

                                      APO, AE 09348 





      MNSTC-I-CG                                                                         18 October 2007

      MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT O F DEFENSE

      SUBJECT: Report on Management of the Iraq Security Forces Fund (ISFF) in Southwest Asia
               Phase III (Project No, D2007-D000LQ-O141.000)


      1. The draft audit report entitled "Management of the Iraq Security Forces Fund (ISFF) in
      Southwest Asia Phase III" was forwarded for review and comment.

      2. MNSTC-1 comments on the recommendations of the report:

      Recommendation 1. Establish internal controls and specific procedures for forward-deployed
      personnel to follow in maintaining adequate oversight of obligated funds and retaining
      accountable property records for expenditure of wartime funding. Concur.

      MNSTC-I Action:
      Developed a draft property accountability standard operating procedure (SOP) (Enclosure 1) for
      equipment distribution and accountability that is applicable to all MNSTC-I activities. The
      property accountabity SOP is currently being reviewed by the DoDIG team who are in theater
      to assess weapons and ammunition accountability procedures. We will incorporate DoDIG's
      comments into the SOP to improve our procedures.
                                                                                                           Enclosures 2
      MNSTC-I also partnered with the Air Force Center for Environmental Excellence to develop a           and 3 were
      SOP (Enclosure 2) to improve procedures for transfer and acceptance of real property. We have
      reviewed and removed the duplicate DD 1354s identified in the report and have corrected and
                                                                                                           omitted
      updated other DD 1354s. The daily reports from the independent contractor for quality
                                                                                                           because of
      assurance have been updated to reflect the current status of construction projects. In order to      length.
      increase transparency and accountability of construction efforts, MNSTC-I has established a          Copies will
      collaborative web portal. This web portal enables the real-time exchange of ail cost, schedule and   be provided
      quality information.                                                                                 upon
                                                                                                           request.
      In June 2007, we set up an accounting section within J8 to improve our overall accounting
      processes. This new section will ensure an accurate and timely oversight of documents as well as
      provide an in-depth review of all accounting transactions. To ensure accuracy we established an
      internal auditing process to monitor various daily, weekly, and monthly reports to stay abreast of
      all commitments and obligations in the accounting systems. We have established a training plan
      (first of its kind) (Enclosure 3) for the accounting section to develop a baseline of requirements
      and expectations.




                                                   37 

Final Report
 Reference




               MNSTC-1-CG
               SUBJECT: Report on Management of the Iraq Security Forces Fund (ISFF) in Southwest Asia
                        Phase III (Project No, D2007-D0OOLQ-0141.000)


               The Gulf Region District (GRD) Corps of Engineers provides all accounting services to process
               accounting documents from start to finish (Purchase Request & Commitment to payment) for
               MNSTC-I. GRD is required to maintain all supporting documents to support the financial
               transactions within the system.

               Estimated completion date: 30 Nov 07

               Recommendation 2. Develop standard operating procedures for processings managing, and
               overseeing Military Interdepartmental Purchase Requests (MIPR). Concur.

               MNSTC-I Action:
               We will produce an SOP for processing, managing, and reviewing MIPRs following the
               completion of the Tri-annual review. We are currently working on a training package to
               distribute to individuals receiving MIPRs. We have also made continuity books showing the
               processes/reconciliation of the MIPRs. MIPRs will be reconciled monthly in the future.

               Expected completion date: 30 Nov 07

               Recommendation 3. Ensure sufficient staff and management tools are provided for proper
               accountability. Non-Concur.

Revised        Recommend DoDIG change the recommendation to require MNSTC-I to identify our
               requirements via Joint Manning Document submission through MNF-1, CENTCOM and to the
Page 17        Joint Staff and OSD for proper sourcing, MNSTC-I does concur that given the amount of dollars
               we oversee that we are comparatively undermanned. See comparison table below.

                     Organization               Auditors           Comptrollers          FY07 Budget
                         MNSTC-I                   1                   16                 5.5 Billion
                    HQ. T R A D O C                8                   64                 3.2 Billion
                   HQ,    FORSCOM                  6                   47                  3 Billion
                    TACOM, AMC                                         45                     Billion
                                                    7




               MNSTC-I Action:
               We are also looking at our internal resources by conducting a Bottom-Up review of MNSTC-I
               functions to determine appropriate personnel staffing requirements.

               Estimated completion date of our Bottom-Up review: 1 N o v 0 7




                                                             2




                                                           38 

                                                                                                    Final Report 

                                                                                                     Reference 





MNSTC-I-CG
SUBJECT: Report on Management of the Iraq Security Forces Fund (1SFF) in Southwest Asia
         Phase II] (Project No. D2007-D000LQ-0141.000)


Recommendation 4, Establish standard operating procedures that will ensure compliance with
the DoD Financial Management Regulation in performing and documenting triannual validation
reviews of unliquidated obligations. C o n c u r .

MNSTC-I Action: Established an accounting section to improve overall accounting processes
that include reviews of system reports on a daily, weekly, and monthly basis. We will ensure
oversight of documents and provide in-depth review of all documents in the accounting system.
As a part of the new process we will conduct 2 5 % of the Tri-annual review every quarter. As the
accounting office for MNSTC-I, GRD is responsible for performing this task.

Estimated completion date: Complete with quarterly reviews in the future.

Recommendation 5 . Establish controls to identify discounts and de-obligate funds in an efficient   Revised
manner.                                                                                             Page 19
Non-Concur with establishing controls to identify discounts in an efficient manner. These
controls already exist. The Corps of Engineer Financial Management System (CEFMS)
automatically calculates the amount of the discounts at the time of disbursement.

C o n c u r regarding establishing controls to deobligate funds in an efficient manner.

MNSTC-I Action: Starting in June 2007, we worked with JCC-I and GRD to initiate an in-
depth review and validation of all open obligations and commitments. As of 14 Sep 07, the
review revealed 950 documents to be deobligated /decommitted, freeing up $831M. Our newly
established accounting section will monitor and control our funds to ensure timely and efficient
use of ISFF in the future.

Estimated completion d a t e : Complete

Recommendation     6. In conjunction with the Defense Finance and Accounting Service, conduct
an assessment of financial management functions (such as financial reporting, accounts payable,
and cost accounting) that could be transferred outside of Iraq to ease the strain on the
Command's accounting personnel. Concur.

MNSTC-I Action:
DFAS performed an initial assessment (Enclosure 4) of MNSTC-I financial management                  Enclosure 4
functions on 4-6 September 2007. Actions are in process to augment the existing MNSTC-I             on Page 41
accounting cell with two DFAS accountants. 15 November 2007 is the estimated arrival date for
the accountants. Plans are being developed to retrograde financial management functions to
CONUS where feasible. In addition, the DFAS MNSTC-I support cell will assist staff in




                                                  3
Final Report
 Reference




               MNSTC-l-CG
               SUBJECT: Report on Management of the Iraq Security Forces Fund (ISFF) in Southwest Asia
                        Phase III (Project No. D2007-DOOOLQ-0141.000)


               improving financial execution, reconciliations, training, reporting and audit processes.
Enclosure 5    Furthermore, we have coordinated with the ARCENT Lean Six Sigma team for a review of
               processes for improvement in the first quarter of 2008.
omitted
because of     Estimated completion d a t e : Complete.
length.
Copies will    3, MNSTC-I submits administrative comments.
be provided
upon           Per agreement with the IG, we have enclosed our proposed Executive Summary {Enclosure 5).
request.       Recommend these changes be adopted and inputted into the final report.

               Page 14 - "MNSTC-I had an average of 83 people in its logistics office...". Change to
Revised        "MNSTC-I had 64 people in its logistics office...". This information is from the MNSTC-I Joint
Page 15        Manning Document.

               Page 15 "MNSTC-I was unable to provide reasonable assurance that ISFF achieved the
               intended results, that resources were used in a manner consistent with the mission..." Change to
               "MNSTC-I was unable to provide an end to end document audit trail to provide reasonable
               assurance that ISFF achieved the intended results".

Revised        Page 16 - "MNSTC-I officials believe that the chain of command limits the ability to control and
Page 14        track all processes in theater". Change to "MNSTC-1 depends on outside agencies to control and
               track certain processes in theater. For instance, GRD provides financial systems support for
               MNSTC-I ISFF expenditures and is responsible for maintaining all supporting documents.
               These interagency relationships are critical to maintaining an end to end audit trail".
Revised
               Page 1 6 - "However, those personnel do not report directly to MNSTC-I". Delete the sentence.

               4. I request a follow up inspection 90 days following the official release of this report.
Page 17        Furthermore, I appreciate your support in assisting us in improving our ISFF accountability and
               oversight.

               5. Point of contact is LTC Kimo Dunn, DSN     (318)852-1359




                                                           JAMES M. DUB1K
                                                           Lieutenant General, US Army
                                                           Commanding
               Enclosures


                                                              4




                                                             40 

Defense Finance and Accounting Service
Comments
                                                                                                                    Final Report
                                                                                                                     Reference




                            DEFENSE FINANCE ANDACCOUNTING SERVICE 

                                                  6899 EAST       STREET            

                                                INDIANAPOLIS, INDIANA 46249 





                                                                                              OCT 0 4 2007
    DFAS-JBI/IN



    M E M O R A N D U M F O R M U L T I - N A T I O N A L SECURITY TRANSITION C O M M A N D - I R A Q
                              (MNSTC-I), J8

    SUBJECT:       Management o f the Iraq Security Forces Fund in Southwest Asia - Phase III, Project
                   D2007-D000LQ-0141.000, Recommendation 6



            DFAS Indianapolis Operations is providing management comments as follows;

    Recommendation 6: In conjunction with the Defense Finance and Accounting Service, conduct an
    assessment o f financial management functions (such as financial reporting, accounts payable, and cost
    accounting) that could b e transferred outside of Iraq to ease the strain on the C o m m a n d ' s accounting
    personnel.


    Management Comments: Concur. DFAS performed an initial assessment of MNSTC-I financial                          Page 20
    management functions. Actions are in process to augment the o u s t i n g MNSTC-I accounting cell with
    two DFAS accountants. Plans are being developed to retrograde, where feasible, financial
    management functions outside o f Iraq to CONUS support In addition, t h e D F A S MNSTC-I support
    cell will assist staff to improve financial execution, reconciliations, training, reporting and audit
    support, Stakeholder: Mr. T o m Roberts, 317-510-2133.

    Estimated C o m p l e t i o n Date: March 3 0 , 2 0 0 8




                                                          Steve R. Bonta
                                                          Director, Indianapolis Operations




                                                         www.dfas.mil

                                                Your Financial Partner   @   Work




                                                              41
               U.S. Army Corps of Engineers Comments 

Final Report
 Reference




                                                             DEPARTMENT O F T H E ARMY
                                                              U.S. ARMY CORPS OF ENGINEERS
                                                                           441 G ST. NW
                                                                  WASHINGTON, D.C. 20314-1000




                    CEIR                                                                                           22 O c t o b e r 2 0 0 7


                    SUBJECT:       R e p o r t on M a n a g e m e n t of the Iraq Security Forces F u n d in S o u t h w e s t Asia ­
                    Phase III (Project N o . D 2 0 0 7 - D 0 0 0 L Q - O 1 4 1 . 0 0 0 0 )



                    M E M O R A N D U M F O R D e p a r t m e n t of Defense Inspector G e n e r a l . 4 0 0 A r m y N a v y
                    Drive, Arlington, V A 22202-4704




                    1. Subject report contains n o r e c o m m e n d a t i o n s t o the U.S. A r m y C o r p s o f Engineers.
                    Nevertheless, w e w o u l d like to offer o n e clarification t o the discussion c o n t a i n e d in the
                    draft report:

Page 20                      Page 6 - P r o m p t P a y m e n t Discounts. T h e C o r p s of Engineers Financial
                    M a n a g e m e n t System ( C E F M S ) generated transactions a u t o m a t i c a l l y r e c o r d the discount
                    t a k e n , return the discount t o the o b l i g a t i o n , deobligate the discount a n d return the
                    discount a m o u n t t o the funding a c c o u n t .      Please refer t o enclosed 3 A u g 0 7      Information
                    P a p e r , Subject: C E F M S Process f o r Discounts T a k e n .


                    2 . Please also refer t o the enclosed 6 O c t 07 e - m a i l , w i t h attachment.


                    3. Questions should be referred to M r . M i l t o n N a u m a n n , 5 4 0 - 6 6 5 - 5 0 2 1 . o r M s . D o n n a
                    F. J o h n s o n , 202-761-8518.




Enclosures
                    2 Enclosures                                                      D O N A L D J . RIPP
omitted
                    As Stated                                                         Chief A u d i t Executive
because of
length.                                                                               H Q , U S A C E Internal R e v i e w Office
                    C o p y Furnished:e
Copies will
                    CEGRD-IR
be provided         CERM-F
upon
request.




                                                                               42 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing, Readiness and
Logistics Support prepared this report. Personnel of the Department of Defense Office of Inspector
General who contributed to the report are listed below.

Wanda A. Scott
Robert F. Prinzbach, II
Nancee K. Needham
Robert M. Murrell
LTC Lewis P. Goodwin, IV
Robert T. Goodwin
Leslie M. Barnes
Brian A. Royer
Loretta L. Loughner
Allison E. Tarmann




                                              43 

